HHS/OIG-Audit-"Audit of the Pension Plan at a Terminated Medicare
Contractor, Trigon Blue Cross and Blue Shield of Virginia," (A-07-01-03004)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, Trigon
Blue Cross and Blue Shield of Virginia," (A-07-01-03004)
July 16, 2002
Complete
Text of Report is available in PDF format (564 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review
was to evaluate Trigon Blue Cross Blue Shield of Virginia (Trigon) compliance
with the pension segmentation requirements of its Medicare contract and to determine
the excess assets that should be remitted to Medicare as a result of the termination
of the Medicare contractual relationship effective August 31, 1999.  We
computed excess pension assets of $487,254 which Trigon should remit to the
Federal Government.  Trigon agreed with our recommendation.